No. 20-1003

In the Supreme Court of the United States
CHRISTY, INC.,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
AMICUS CURIAE MASIMO CORPORATION contains 4,622 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 17, 2021.
/s/ Stephen W. Larson
STEPHEN W. LARSON
Counsel of Record
KNOBBE, MARTENS, OLSON & BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
stephen.larson@knobbe.com
Attorneys for Amicus Curiae
Masimo Corporation

